No.

IN THE
SUPREME COURT OF THE UNITED STATES

Eddie Ashley

— PETITIONER

(Your Name)
VS.
Christian Pfeiffer

— RESPONDENT(S)
PROOF OF SERVICE
Eddie Ashley
I,
November 16, 2020

________________ , do swear or declare that on this date,
20__ , as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
The J.S. Supreme Court
1 First Street NE
Washington, D.C. 20543
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 16, 2020

,20_

(Sigi\pMxU)

STATE OF CALIFORNIA

COUNTY OF KERN
VERIFICATION
C.C.P. SEC. 466 & 2015.5: 28 U.S.C. SEC. 17460

Eddie Ashley

declare under penalty of perjury that: I am the

I
Petitioner

in the above entitled action. I have read the foregoing documents and
know the contents thereof and the same is true of my own knowledge, except as to matters stated therein upon
information, and belief, and as to those matters, I believe they are true.
Executed this * ®

day of November

. 2020, Kem Valley State Prison.
Signature
DECLARANT/PRISONER

PROOF OF SEVICE BY MAIL
C.C.P. SEC. 1013(a) & 2015.5: 28 U.S.C. SEC. 1746
Eddie Ashley
, am a resident of California State Prison, in the County of
I
KERN, State of California: I am over the age of eighteen (18) years and am/am not a party of the above entitled
Delano, CA. 93216.
action. My state prison address is: P.O. Box 5
On

November 18

, 2020,1 served the foregoing

WRIT OF CERTARIORI

Set forth exact title of document(s) served
On the party(s) herein by placing a true copy(s) thereof, enclosed in sealed envelope(s) with postage thereof
fully paid, in the United States Mail, in a deposit box so provided at KERN Valley State Prison, Delano, CA.
93215.
U.S. Supreme Court
1 First Street NF.,
Washington, DC 20543

List parties served
There is delivery service by United States Mail at the place so addressed, and/or there is regular communication
by mail between the place of mailing and the place so addressed.
I declare under penalty of perjury that the foregoing is true and correct.
DATED:

November 18, 2020
DECLARANT/PRISONER

